Audit Report




OIG-12-059
SAFETY AND SOUNDNESS: Failed Bank Review of Charter
National Bank and Trust, Hoffman Estates, Illinois
July 20, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               July 20, 2012


            OIG-12-059

            MEMORANDUM FOR THOMAS J. CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                  Jeffrey Dye /s/
                                   Director, Banking Audits

            SUBJECT:               Failed Bank Review of Charter National Bank and Trust


            This memorandum presents the results of our review of the failure of Charter
            National Bank and Trust (Charter) located in Hoffman Estates, Illinois. Charter
            opened in July 1980 and operated a main office and a branch office in Hoffman
            Estates. The bank was wholly owned by Hanover Bank Corporation, Hanover Park,
            Illinois, a one-bank holding company. The Office of the Comptroller of the Currency
            (OCC) closed Charter and appointed the Federal Deposit Insurance Corporation
            (FDIC) as receiver on February 10, 2012. As of December 31, 2011, the bank had
            $93.9 million in total assets. As of June 30, 2012, FDIC estimated that the loss to
            the Deposit Insurance Fund is $20.4 million.

            Because the loss to the Deposit Insurance Fund is less than $150 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of Charter that was limited to (1) ascertaining the grounds
            identified by OCC for appointing FDIC as receiver and (2) determining whether any
            unusual circumstances exist that might warrant a more in-depth review of the loss.
            In performing our review we (1) examined documentation related to the
            appointment of FDIC as receiver and (2) interviewed an OCC problem bank
            specialist. We performed our fieldwork from February to April 2012.

            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
            our findings and conclusions based on our audit objectives. We believe that the
            evidence obtained provides a reasonable basis for our findings and conclusions
            based on our audit objectives.
OIG-12-059
Page 2

Causes of Charter National Bank and Trust’s Failure
OCC appointed FDIC receiver primarily on the following grounds: (1) Charter was in an
unsafe or unsound condition to transact business, (2) the bank had experienced
substantial dissipation of assets or earnings due to unsafe or unsound practices,
(3) the bank had incurred or was likely to incur losses that would deplete all or
substantially all of its capital and there was no reasonable prospect for it to become
adequately capitalized without federal assistance, (4) the bank’s unsafe or unsound
practices or condition were likely to seriously prejudice the interests of the Deposit
Insurance Fund and (5) the bank was critically undercapitalized.

The primary cause of Charter’s failure was its focus on commercial lending which,
when combined with weak credit risk management practices, led to a concentration of
commercial real estate loans in the bank’s market area. Credit risk management
weaknesses included inadequate monitoring of credit concentrations, poor
underwriting, and poor problem loan identification practices. The underwriting and
subsequent poor performance of commercial loan participations purchased from
Western Springs National Bank and Trust (Western Springs) were particular concerns.
Western Springs was a failed institution 1 where Charter’s Chairman and his family had
a significant financial interest and where the Chairman and members of his family,
including Charter’s President, served as directors. Beginning in 2007, economic
deterioration within the markets that Charter served resulted in the deterioration of
Charter’s asset quality. This led to increased credit losses, declining capital levels and,
ultimately, failure.

During our review, we noted that OCC had opened an Order of Investigation into
certain questionable activities by Charter’s management. We referred these matters to
the Treasury Inspector General’s Office of Investigation.



1
  OCC closed Western Springs National Bank and Trust and appointed FDIC as receiver on April 8,
2011. As of June 30, 2012, FDIC estimated the loss to the Deposit Insurance Fund from the failure
of Western Springs to be $44.5 million. Treasury OIG conducted a failed bank review of Western
Springs and issued audit report on September 14, 2011 (Safety and Soundness: Failed Bank Review
of Western Springs National Bank and Trust, Western Springs, Illinois, OIG-11-099). We reported
that the primary cause of Western Spring’s failure was its pursuit of a growth strategy that resulted
in significant commercial real estate concentrations, combined with poor credit administration and
risk management practices. Deficiencies included very liberal underwriting practices, ineffective
problem loan identification and loan review processes, and weaknesses in the collateral valuation
process. The poor performance of loan participations purchased from Mutual Bank, Harvey, Illinois,
a failed institution where Western Spring’s Chairman served as Vice Chairman, was also a factor in
the bank’s failure.
OIG-12-059
Page 3

Conclusion
Based on our review of the causes of Charter’s failure and the grounds identified by
OCC for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the bank’s failure that would necessitate an in-depth
review. We provided a draft of this memorandum to OCC management for
comment. In its response, OCC stated that it agreed with our conclusion as to the
causes of failure of Charter and that it had no concerns with our determination that
an in-depth review of the bank’s failure is not warranted. The response is provided
as Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or James
Lisle, Audit Manager, at (202) 927-6345.

Attachments
         OIG-12-059

       Attachment 1
Management Response
                                                     OIG-12-059

                                                   Attachment 2
                                                     Distribution



Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
